September 15, 2008

DENISE D. PORTER
PLANT MANAGER, RALEIGH PROCESSING AND DISTRIBUTION CENTER

SUBJECT: Audit Report – Powered Industrial Vehicle Management System at the
         Raleigh Processing and Distribution Center
         (Report Number NO-AR-08-007)

This report presents the results of our review of the Powered Industrial Vehicle
Management System (PIVMS)1 at the Raleigh, North Carolina, Processing and
Distribution Center (P&DC), located in the Capital Metro Area (Project Number
08XG022NO000). Our objectives were to determine whether the PIVMS was
functioning as intended and producing efficiency improvements. Click here to go to
Appendix A for additional information about this audit.

Conclusion

The Raleigh P&DC did not always use the PIVMS as intended and consequently did not
fully realize efficiency improvements. If the Raleigh P&DC used the PIVMS as
intended, we estimated that management could save 9,000 workhours by the end of
fiscal year (FY) 2010, with an economic impact of $3.3 million in savings over 10 years.
In addition, the Raleigh P&DC should consider reducing its inventory of powered
equipment.

Use of the PIVMS at the Raleigh P&DC

The Raleigh P&DC used the PIVMS to complete Occupational Safety and Health
Administration (OSHA) worksheets and to identify the employee logged in as the user of
a vehicle when an accident occurred. However, they did not always use the PIVMS to:

    •    Manage equipment operator workhours or overtime.

    •    Schedule preventive maintenance or ensure that maintenance was completed.

    •    Monitor vehicle battery usage.


1
 The PIVMS is a wireless system that provides automated measurement, control, and compliance reporting of
operations within a plant, resulting in optimal powered industrial vehicle (PIV) safety conditions, operations,
supervision, and associated savings.
Powered Industrial Vehicle Management System at the                           NO-AR-08-007
 Raleigh Processing and Distribution Center



   •   Identify opportunities to reduce vehicle inventory. Instead, the number of
       powered vehicles at the Raleigh P&DC increased.

In addition, some safety and security features of the PIVMS were occasionally
bypassed. Click here to go to Appendix B for our detailed analysis of this topic.

Volume and Workhour Trends

After the Raleigh P&DC implemented the PIVMS in March 2006, management did not
improve efficiency. Instead, tow and forklift workhours increased by almost 1 percent
after implementation. In addition, overtime in these operations increased more than 33
percent from FY 2005 to FY 2007. Click here to go to Appendix C for our detailed
analysis of this topic.

In contrast, the 20 P&DCs that had the PIVMS installed for at least 1 year reduced tow
and forklift workhours by more than 7 percent and used a lower percentage of these
workhours to total mail processing workhours than the Raleigh P&DC. Click here to go
to Appendix D for our detailed analysis of this topic.

Causes

Several factors contributed to the Raleigh P&DC’s limited use of the PIVMS.

   •   Management was not aware of any goals or requirements for PIVMS.

   •   The training provided did not explain how to capture savings in a postal
       environment.

   •   Management had no confidence in the accuracy of the system reports or design
       features.

Criteria

The Report of the President’s Commission on the United States Postal Service report,
dated July 31, 2003, states that the mission of the Postal Service is

        . . . to provide high-quality, essential postal services to all
        persons and communities by the most cost-effective and
        efficient means possible at affordable and, where appropriate,
        uniform rates.

Title 39, United States Code, Part 1, Chapter 4, § 403, states:




                                                  2
Powered Industrial Vehicle Management System at the                                                   NO-AR-08-007
 Raleigh Processing and Distribution Center


          The Postal Service shall plan, develop, promote, and provide
          adequate and efficient postal services at fair and reasonable rates
          and fees.

The Postal Accountability and Enhancement Act of 2006 emphasizes

         . . . the need for the Postal Service to increase its efficiency and
         reduce its costs, including infrastructure costs, to help maintain high
         quality, affordable postal services. . . .

Effect

By not using the PIVMS as intended, the Postal Service used more workhours and
equipment than necessary in its tow and forklift operations. Click here to go to
Appendix E for our calculations of funds put to better use.

Other Issues

During our review, we found that some PIVMS design features were not always
functioning or accurate. For example, the text-messaging feature did not work, speed
monitor reports were not always accurate, and users found problems with impact
sensors.2 We also noted that specific PIVMS goals and targets had not been
established and that additional training may be required. We will address these issues
in our capping report. Click here to go to Appendix F for more details.

Management Actions

Management was aware of the need to achieve an acceptable return on investment
from the PIVMS and supported this goal. After our exit conference on June 11, 2008,
management asked the Postal Service Headquarters PIVMS team to provide
assistance in resolving the remaining PIVMS features that were not functioning as
intended and to arrange additional training for the PIVMS users. Once the PIVMS
problems are resolved, Raleigh P&DC management will be committed to ensuring the
necessary savings and efficiency improvements. In fact, the Postal Service
Headquarters PIVMS Project Manager provided assistance to the Raleigh P&DC prior
to the completion of this audit. These actions will enhance the confidence of Raleigh
P&DC management in the accuracy of the PIVMS reports and design features.




2
 Speed monitor reports show the speed of the forklift. Impact sensors shut down the vehicle that is involved in a
collision.




                                                          3
Powered Industrial Vehicle Management System at the                         NO-AR-08-007
 Raleigh Processing and Distribution Center


Recommendations

To ensure the Powered Industrial Vehicle Management System at the Raleigh
Processing and Distribution Center is functioning as intended and producing efficiency
improvements, we recommend the Plant Manager, Raleigh Processing and Distribution
Center:

1. Use the Powered Industrial Vehicle Management System to the fullest extent
   possible to manage operations and continue to improve mail processing efficiency
   by reducing 9,000 workhours in tow and forklift operations by fiscal year 2010.

2. Consider reducing the inventory of powered industrial vehicles at the Raleigh
   Processing and Distribution Center.

Management’s Comments

Management agreed with the recommendations and monetary impact. Management’s
comments, in their entirety, are included in Appendix G.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should revolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We will report $3,345,456 in Funds Put to Better Use in our Semiannual Report to
Congress.




                                                  4
Powered Industrial Vehicle Management System at the                        NO-AR-08-007
 Raleigh Processing and Distribution Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    David E. Williams, Jr.
    Russell Gardner, Jr.
    Katherine S. Banks




                                                  5
Powered Industrial Vehicle Management System at the                                                NO-AR-08-007
 Raleigh Processing and Distribution Center


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Raleigh P&DC is located in the Greensboro District in the Capital Metro Area. The
map below shows the Capital Metro Area districts by three-digit ZIP Code.


   Capital Metro Area
    Customer Service Districts
                                                                               Baltimore
                                                                            210-212,214-219
                          Northern Virginia
                         201,220-223,226,227

                                                                                     Capital
                                                                                   200,202-209




                                                                                  Richmond
                                                                             224,225,228-239,244




                                                                              Greensboro
                                                                              270-279,286




                                                                      Mid-Carolinas
                                                                   280-285,287-289,297



                                                      Greater S. Carolina
                                                           290-296




The Raleigh P&DC processed over 1.06 billion first handling pieces (FHP) of mail and
used 1.3 million workhours in FY 2007. The Postal Service owns the Raleigh P&DC
building and has occupied the facility since December 1993. The building contains
385,705 square feet of interior space, on a site with 1,532,686 square feet. Before May
2007, the district also included the Raleigh Air Mail Center (AMC), which processed 2.8
million FHP and used 54,000 workhours in FY 2006. Management closed the AMC in
May 2007 and transferred its mail processing volume to the Raleigh P&DC.

The Raleigh P&DC implemented the PIVMS on March 3, 2006, at a projected cost of
$218,150. The purchase was justified based on providing a safer working environment,
reducing employee operator costs, and not increasing the vehicle inventory. This
implementation was part of a national contract awarded by the Postal Service to I.D.
Systems, Inc. (I.D. Systems) of Hackensack, New Jersey in January 2005 to produce
and deploy the PIVMS. The Postal Service started the program as a pilot by signing a



                                                  6
Powered Industrial Vehicle Management System at the                           NO-AR-08-007
 Raleigh Processing and Distribution Center


$3.6 million contract with I.D. Systems to implement a wireless asset management
system at 10 bulk mailing and distribution facilities nationwide. As of April 2008, the
Postal Service had placed orders for the deployment in 80 facilities. The total amount
funded for the PIVMS as of May 2008 was more than $31 million.

The Postal Service intended the PIVMS to provide automated measurement, control,
and compliance reporting of PIV operations within a plant, resulting in optimal PIV
safety conditions, operations, supervision, and associated savings. Major system
design features were:

    •   Two-way text messaging.

    •   Assurance of OSHA safety compliance by allowing only operators with current
        certifications to log on and operate specified equipment.

    •   Increased safety and accountability resulting from the use of speed and impact
        monitors.

    •   Measurement of the amount of time that an operator is logged into a vehicle and
        the amount of time the vehicle is in motion.

    •   Location and tracking of vehicles within a plant.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether the PIVMS was functioning as intended and
producing efficiency improvements. To accomplish these objectives, we observed mail
processing operations and analyzed volume and workhour trends at the Raleigh P&DC.
The Raleigh P&DC implemented the PIVMS before the end of FY 2006, so we
benchmarked the Raleigh P&DC with the 20 sites that had implemented the PIVMS
after FY 2006. We also evaluated the utilization and capacity, staffing levels, and
inventory of powered equipment at the Raleigh P&DC.

To conduct this audit, we relied on computer-processed data maintained by Postal
Service Operational Systems, which included the National Work Hour Reporting
System, the Web Enterprise Information System, the Management Operating Data
System (MODS), the Web-based Complement Information System, and the Enterprise
Data Warehouse system.

We did not test the validity of controls over these systems. However, we verified the
accuracy of the data by confirming our analysis and results with Postal Service
managers and other data sources. In addition, we relied on OIG audits of Postal




                                                  7
Powered Industrial Vehicle Management System at the                                         NO-AR-08-007
 Raleigh Processing and Distribution Center


Service systems. Also, an OIG review of MODS concluded that the data in this system
was valid and reliable for the uses for which it was intended.3

We conducted this performance audit from February through September 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on June 11, 2008, and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

We did not identify any prior audits of the PIVMS.




3
    Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).




                                                      8
Powered Industrial Vehicle Management System at the                                                  NO-AR-08-007
 Raleigh Processing and Distribution Center



                                APPENDIX B: DETAILED ANALYSIS

Use of the PIVMS

The Raleigh P&DC did not always use the PIVMS to:

    •   Manage equipment operator workhours or overtime.

    •   Schedule preventive maintenance or ensure that maintenance was
        accomplished.

    •   Monitor vehicle battery usage.

    •   Identify opportunities to reduce vehicle inventory. Instead, the number of
        powered vehicles at the Raleigh P&DC increased.

In addition, although management used the PIVMS to complete OSHA worksheets and
to identify the employee logged into a vehicle when an accident occurred, management
occasionally bypassed some safety and security features.

Management of Equipment Operator Workhours and Overtime

We found that management did not always use the PIVMS to manage tow and forklift
workhours or overtime, or to improve operator efficiency. For example, we reviewed the
number of logons to the PIVMS and found that only 4 out of the 28 mail processing
managers (14.29 percent) logged on to the PIVMS from April 1 through 29, 2008. We
interviewed supervisors and found that they generally logged on to the PIVMS only for
tasks such as starting vehicles for employees or locating vehicles parked in non-
designated locations.

We also found that fewer than 7 percent of supervisors used the PIVMS reports. The
PIVMS reports allow management to monitor and measure vehicle utilization attributes
such as simultaneous vehicle usage, speed, distance traveled, idle time, and motion
time while carrying or pulling a load in order to assess productivity.

Raleigh P&DC management stated they were not using the PIVMS or the system
reports because they were not confident that the report data was reliable. We found
that when managers used master badges4 to start vehicles for operators who had
difficulty getting vehicles to operate, some reporting features of the PIVMS were
bypassed and reports were not always accurate. For example, vehicles that were
started by master badge access showed that travel hours and travel with load hours

4
 Users with master badges can determine the status of the vehicle; grant temporary access to the vehicle; or enable
or disable a vehicle. Additionally, master users have access to any vehicle at any time.




                                                         9
Powered Industrial Vehicle Management System at the                                                  NO-AR-08-007
 Raleigh Processing and Distribution Center


were greater than login hours.5 We reviewed the PIVMS travel with load reports from
November 2006 through April 2008. In 11 of these 18 months, the reports showed that
travel hours and travel with load ratios were greater than 100 percent.

Maintaining Vehicle Equipment and Monitoring Battery Usage

Management at the Raleigh P&DC did not always use the PIVMS reports to schedule
preventive maintenance or ensure that maintenance was performed. The PIVMS
maintenance tool allows management to forecast, schedule, and process preventive
maintenance. By using this tool, management could more effectively manage
preventive maintenance of vehicles.

In addition, management did not use the PIVMS battery management system to monitor
battery usage. The purpose of the PIVMS Battery/Charger Administration module is to
extend vehicle battery life and reduce battery inventory.6

Vehicle Inventory Management

Management did not use the PIVMS to identify opportunities to reduce vehicle
inventory. Instead, the number of powered vehicles at the Raleigh P&DC increased
from 29 in March 2006, when the PIVMS was implemented, to 32 in April 2008. See
Table 1 below.

        TABLE 1: POWERED INDUSTRIAL VEHICLES AT THE RALEIGH P&DC

                                    Powered Industrial Vehicle Inventory

                                                  March                  Increase/
                                                  2006        April 2008 Decrease
                                 Forklifts         10            13          3
                                   Tows            16            16          0
                                Pallet Jacks        3             3          0
                                    Total          29            32          3

We also noted that the maximum number of vehicles used simultaneously from
November 2006 to April 2008 was 22, indicating a possible surplus of vehicles. In
addition, the maximum number of powered equipment operators scheduled to work
simultaneously was 13. Management stated that they are studying the impact of the
Raleigh AMC closure on the tow and forklift operations and agreed to review vehicle
equipment needs.

5
  A vehicle cannot travel 100 percent of the time or travel with a load 100 percent of the time. Powered industrial
vehicles carry loads from one part of a processing center to another. The vehicle leaves the loaded material at a
drop point and returns empty to obtain another load.
6
  Industrial batteries provide a maximum return on investment when they are discharged to appropriate levels during
operation, and are allowed to recharge and cool down during their charge cycles. I.D. Systems’ Fleet Management
System notifies the operator when the battery has discharged sufficiently and should be replaced.




                                                         10
Powered Industrial Vehicle Management System at the                             NO-AR-08-007
 Raleigh Processing and Distribution Center


Safety and Security Features

Management at the Raleigh P&DC occasionally bypassed some PIVMS safety and
security features designed to ensure compliance with OSHA rules. For example:

   •   One PIVMS safety feature only allows currently certified operators to log on and
       operate specified equipment. Raleigh P&DC supervisors and employees
       sometimes used master badges to start vehicles for operators whose licenses
       had expired or who had difficulty getting vehicles to operate.

   •   Another PIVMS safety feature requires the operator to complete an OSHA
       checklist within a prescribed time after logging on to the vehicle. We observed
       that most equipment operators completed the OSHA safety checklist at the start
       of their tour. However, operators sometimes asked a supervisor to bypass the
       system and start the vehicle when the operator forgot to complete the OSHA
       checklist within the required period. See Illustration 1.




                      Illustration 1: Employee used proper identification and the
                      OSHA checklist to start the tram on May 1, 2008, at
                      10:42 a.m.




                                                  11
Powered Industrial Vehicle Management System at the                         NO-AR-08-007
 Raleigh Processing and Distribution Center


On several occasions, management used the PIVMS to identify the employee logged on
to a vehicle when an accident occurred. During our review at the Raleigh P&DC, we did
not observe unsafe driving practices or accidents. However, we observed that vehicle
impacts had caused damage to the building and to PIVs. See Illustrations 2 and 3
below.




           Illustration 2: On April 28, 2008, at 2:08 p.m., we observed damage
           to a duct and wall in the Raleigh P&DC, caused by a vehicle impact.




                                                  12
Powered Industrial Vehicle Management System at the                         NO-AR-08-007
 Raleigh Processing and Distribution Center




           Illustration 3: On April 28, 2008, at 2:20 p.m., we observed a damaged
           forklift. The side cover was torn.

We also found that management did not run or review OSHA compliance and other
compliance exception reports from the PIVMS. These reports allow management to
track and monitor whether the PIVMS is complying with OSHA, correct noncompliance,
and report OSHA issues to higher management.




                                                  13
Powered Industrial Vehicle Management System at the                                              NO-AR-08-007
 Raleigh Processing and Distribution Center


                    APPENDIX C: VOLUME AND WORKHOUR TRENDS

We reviewed mail volume, workhour, productivity, and complement trends for the
Raleigh P&DC for FYs 2005 through 2007. From FYs 2005 to 2007, volume at the
Raleigh P&DC increased slightly (.15 percent) but mail processing (function 1)
workhours increased 8.23 percent. As a result, productivity7 declined 7.47 percent.
From FYs 2005 to 2007, workhours used in tow and forklift operations at the Raleigh
P&DC increased 3.29 percent, and overtime used in these operations increased
33.46 percent. In FY 2007, the Raleigh P&DC used 6.93 percent of mail processing
workhours in tow and forklift operations. The number of equipment operators in FY
2007 was 37, a decrease of one operator since FY 2005.

Management implemented the PIVMS at the Raleigh P&DC on March 3, 2006, but did
not improve efficiency after the implementation. We reviewed tow and forklift workhours
for the 12 months both before and after implementation and found no decrease in
workhours after implementation. Instead, workhours increased by almost 1 percent.
See Table 2 below.

                           TABLE 2: RALEIGH P&DC TRENDS
                       BEFORE AND AFTER PIVMS IMPLEMENTATION

                  Raleigh P&DC PIVMS Implementation Date March 3, 2006
              Year Before PIVMS                 Year After PIVMS
                                                                               Percentage Changes
               Implementation                    Implementation
         Function 1        Tow and      Function 1   Tow and      Function 1   Tow and
           Hours         Forklift Hours   Hours    Forklift Hours   Hours    Forklift Hours
          1,177,289          87,197        1,238,063         87,811            5.16            0.70




7
 To determine FHP productivity, we divided FY 2007 FHP volume by total function 1 workhours for FY 2007.
Raleigh's FY 2007 productivity was 837 pieces processed per workhour.




                                                       14
Powered Industrial Vehicle Management System at the                           NO-AR-08-007
 Raleigh Processing and Distribution Center


                 APPENDIX D: COMPARISONS TO OTHER FACILITIES

We reviewed volume, workhour, productivity, and complement trends for the 20 P&DCs
that had installed the PIVMS before the end of FY 2006. At those sites, data for at least
one fiscal year was available, so we reviewed these trends from FYs 2005 through
2007.

During this time, volume at these sites increased slightly (.95 percent) and mail
processing (function 1) workhours decreased 6.69 percent. As a result, productivity
increased 8.19 percent. From FYs 2005 to 2007, workhours used in tow and forklift
operations at these sites decreased 10.47 percent, and overtime used in these
operations decreased 13.38 percent. In FY 2007, the average site used 5.97 percent of
mail processing workhours in tow and forklift operations. The number of equipment
operators increased 1.92 percent from FYs 2005 to 2007.

Comparing Raleigh P&DC to the other 19 sites:

   •    From FYs 2005 to 2007, the average site reduced tow and forklift workhours by
        10.47 percent. The Raleigh P&DC ranked 11th out of 20 sites in this
        comparison.

   •    The average site reduced tow and forklift overtime by 13.38 percent. The
        Raleigh P&DC ranked 20th out of 20 sites in this comparison.

The average of these 20 sites reduced tow and forklift workhours by 7.03 percent after
implementation, compared to the Raleigh P&DC’s increase of almost 1 percent. See
Table 3 below.

       TABLE 3: RALEIGH P&DC COMPARED TO OTHER P&DCS WITH PIVMS,
                    BEFORE AND AFTER IMPLEMENTATION

                                                                          Percentage
                           12 Months Before            12 Months After   Change in Tow
                                PIVMS                      PIVMS          and Forklift
                                                                          Workhours
  Raleigh P&DC                    87,197                   87,811            0.70
  Average P&DC
                                 113,403                  105,430            -7.03
   with PIVMS




                                                  15
Powered Industrial Vehicle Management System at the                          NO-AR-08-007
 Raleigh Processing and Distribution Center


           APPENDIX E: CALCULATION OF FUNDS PUT TO BETTER USE

By using the PIVMS as intended, we estimated that management could save
9,000 workhours by the end of FY 2010.

We determined the potential 9,000 workhour savings as follows.

   •   The 20 sites that implemented the PIVMS before the end of FY 2006 had an
       average FHP productivity of 805.

   •   Using FHP productivity of 805, we calculated earned hours for the Raleigh P&DC
       at 1,319,533.

   •   On average, the 20 sites used 5.97 percent of function 1 workhours in tow and
       forklift operations.

   •   We multiplied the 1,319,533 calculated earned hours at the Raleigh P&DC by
       5.97 to determine that earned tow and forklift workhours at the Raleigh P&DC
       could be 78,836.

   •   Raleigh P&DC used 87,924 workhours in these operations in FY 2007, a
       difference of 9,088 workhours.

Raleigh P&DC management agreed to a 9,000 workhour reduction.

This workhour savings should have an economic impact of $3.3 million (net present
value) in savings over 10 years.

                                FUNDS PUT TO BETTER USE

                                                                Time Frame
                                                               10 Fiscal Years
                Employee Category                 Workhour       Discounted
                    Affected                      Reduction        Savings
                                                                (Net Present
                                                                    Value)
            Function 1 Mail Processing                 9,000     $3,345,456
               Mail Handler Hours

NOTES

   •   We based the 9,000 workhour reduction on management’s plan to reduce
       workhours over a 2-year period, based on FY 2007 usage.




                                                  16
Powered Industrial Vehicle Management System at the                           NO-AR-08-007
 Raleigh Processing and Distribution Center



   •   We calculated the cost avoidance using the savings in hours multiplied by the
       escalated labor rate over a 10-year period.

   •   We calculated the net present value using the June 6, 2008, discount rate of
       4 percent over a 10-year period.

   •   We based labor rates on the Postal Service’s May 6, 2008, published rates for a
       level 05 (PS-05) mailhandler.

   •   The yearly escalation factor is 2.2 percent, based on the Postal Service’s
       decision analysis factors, effective June 6, 2008.




                                                  17
Powered Industrial Vehicle Management System at the                          NO-AR-08-007
 Raleigh Processing and Distribution Center


                                APPENDIX F: OTHER ISSUES

During our audit, we found that management was not aware of any PIVMS goals or
targets, or of requirements to run or review PIVMS reports. Management stated that the
training provided by I.D. Systems explained how to run the PIVMS reports, but did not
explain how to capture savings from the PIVMS in a postal environment.

We also found that some PIVMS design features were not always functioning or
accurate. For example:

   •   The PIVMS text-messaging feature did not work during our observations. Text
       messaging allows a supervisor to make immediate contact with an equipment
       operator.

   •   Speed monitor reports were not always accurate. The speed monitors increase
       safety by limiting vehicle speed. Management contacted I.D. Systems in April
       2008 to report that the monitors were sometimes inaccurate.

   •   I.D. Systems did not activate the impact sensors until 1 year after the initial
       installation. The impact sensor increases safety by shutting down a vehicle after
       recording an impact or collision.

We will address these issues in our capping report.




                                                  18
Powered Industrial Vehicle Management System at the        NO-AR-08-007
 Raleigh Processing and Distribution Center



                       APPENDIX G: MANAGEMENT’S COMMENTS




                                                  19
Powered Industrial Vehicle Management System at the    NO-AR-08-007
 Raleigh Processing and Distribution Center




                                                  20
Powered Industrial Vehicle Management System at the    NO-AR-08-007
 Raleigh Processing and Distribution Center




                                                  21
Powered Industrial Vehicle Management System at the    NO-AR-08-007
 Raleigh Processing and Distribution Center




                                                  22
